This Guide to Benefit describes the benefit in effect as of 3/1/08.This benefit and description supersedes
any prior benefit and description you may have received earlier. Please read and retain for your records.
Your eligibility is determined by the date your financial institution enrolled your account in the benefit.

Your Visa Card Guide to Benefit
®

Travel Accident Insurance
For questions about your balance, call the customer service number on your Visa statement.

Principal Sum: $250.000
THIS IS AN ACCIDENTAL DEATH AND DISMEMBERMENT
ONLY POLICY AND DOES NOT PAY BENEFITS FOR LOSS
FROM SICKNESS
This Description of Coverage is provided to all eligible VISA Classic
cardholders and replaces any and all Descriptions of Coverage previously issued to the insured with respect to insurance described herein.

Eligibility and Period of Coverage
As a VISA Classic cardholder, you are covered beginning on
03/01/08 or the date your credit card is issued, whichever is later.
You and your dependents1 become covered automatically when the
entire Common Carrier fare is charged to your covered VISA card
account (“Covered Persons”). It is not necessary to notify the
financial institution, the Insurance Company, or the Plan Administrator when tickets are purchased. Coverage ends when the policy
is terminated.

Benefits
Subject to the terms and conditions, if a Covered Person’s accidental
bodily Injury occurs while on a Covered Trip and results in any of the
following Losses within one (1) year after the date of the accident,
the Insurance Company will pay the following percentage of the
Principal Sum for accidental Loss of:
Life . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
Both hands or both feet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
Sight of both eyes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
One hand and one foot . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
Speech and hearing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
One hand or one foot and the sight of one eye. . . . . . . . . . . . . 100%
One hand or one foot . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50%
Sight of one eye. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50%
Speech or hearing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50%
Thumb and index finger on the same hand . . . . . . . . . . . . . . . . . 25%
In no event will multiple charge cards obligate the Insurance
Company in excess of the stated benefit for any one Loss sustained
by a Covered Person as a result of any one accident. The maximum
amount payable for all Losses due to the same accident is the
Principal Sum.
Loss means actual severance through or above the wrist or ankle
joints with regard to hands and feet; entire and irrevocable loss of
sight, speech or hearing; actual severance through or above the
metacarpophalangeal joints with regard to thumb and index fingers.
The life benefit provides coverage in the event of a Covered Person’s
death. If a Covered Person’s body has not been found within one
(1) year of disappearance, stranding, sinking, or wreckage of any
Common Carrier in which the Covered Person was covered as a
passenger, then it shall be presumed, subject to all other provisions
and conditions of this coverage, the Covered Person suffered loss
of life.
Injury means bodily injury or injuries, sustained by the insured
person which are the direct cause of Loss, independent of disease
cause of Loss, independent of disease or bodily infirmity, and
occurring while the Covered Person is covered under this policy,
while the insurance is in force.

Covered Trip means a trip (a) while the Covered Person is riding
on a Common Carrier as a passenger and not as a pilot, operator,
or crew member; (b) charged to your VISA Classic card; and (c)
that begins and ends at the places designated on the ticket purchased for the trip. Covered Trip will also include travel on a
Common Carrier (excluding aircraft), directly to, from, or at any
Common Carrier terminal, which travel immediately precedes
departure to or follows arrival at the destination designated on
the ticket purchased for the Covered Trip.
Common Carrier means any scheduled airline, land, or water
conveyance licensed for transportation of passengers for hire.
Exclusion: No payment will be made for any Loss that occurs in
connection with, or is the result of: (a) suicide, attempted suicide,
or intentionally self-inflicted injury; (b) any sickness or disease;
(c) travel or flight on any kind of aircraft or Common Carrier except
as a fare-paying passenger in an aircraft or on a Common Carrier
operated on a regular schedule for passenger service over an established route; or (d) war or act of war, whether declared or undeclared.
Beneficiary: Benefit for Loss of life is payable to your estate, or to
the beneficiary designated in writing by you. All other benefits are
payable to you.
Notice of Claim: Written Notice of claim, including your name
and reference to VISA Classic, should be mailed to the Plan
Administrator within twenty (20) days of a covered Loss or as
soon as reasonably possible. The Plan Administrator will send the
claimant forms for filing proof of Loss.
The Cost: This travel insurance is purchased for you by your
financial institution.
Description of Coverage: This description of coverage details
material facts about a Travel Accident Insurance Policy which has
been established for you and is underwritten by Virginia Surety
Company, Inc. Please read this description carefully. All provisions
of the plan are in the policy, issued to the financial institution trust.
Any difference between the policy and this description will be
settled according to the provisions of the policy.
Questions: Answers to specific questions can be obtained by
writing to the Plan Administrator:
CBSI Enhancement Services
550 Mamaroneck Avenue, Suite 309
Harrison, NY 10528
Underwritten by: Virginia Surety Company, Inc.
175 West Jackson Blvd., 11th Floor
Chicago, IL 60604
1

Your spouse, unmarried dependent child(ren), under age 19 (25 if a full-time
student). No age limit for incapacitated child. Incapacitated child means a child
incapable of self sustaining employment by reason of mental retardation or
physical handicap, and chiefly dependent on you for support and maintenance.
Dependent child(ren) receive 50% of your benefit amount.

(Continued on next page)

Travel Accident Insurance (Cont.)
Additional Provisions for Travel Accident Insurance: Travel Accident Insurance is
provided under a master policy of insurance issued by Virginia Surety Company, Inc.
(herein referred to as “Company”). We reserve the right to change the benefits and
features of all these programs.
The financial institution or the Company can cancel or choose not to renew the
Insurance coverages for all Insureds. If this happens, the financial institution will
notify the accountholder at least thirty (30) days in advance of the expiration of the
policy. Such notices need not be given if substantially similar replacement coverage
takes effect without interruption and is provided by the same insurer. Insurance benefits
will still apply to Covered Trips commenced prior to the date of such cancellation or
non-renewal, provided all other terms and conditions of coverage are met. Travel
Accident Insurance does not apply if Your VISA Classic card privileges have
been suspended or canceled. However, insurance benefits will still apply to Covered
Trips commenced prior to the date that Your account is suspended or
cancelled provided all other terms and conditions of coverage are met.

© 2008 Visa Inc. All Rights Reserved.

Coverage will be void if, at any time, the accountholder has concealed or misrepresented
any material fact or circumstance concerning this coverage or the subject thereof or
the accountholder’s interest herein, or in the case of any fraud or false swearing by
the Insured relating thereto. No person or entity other than the accountholder shall
have any legal or equitable right, remedy, or claim for insurance proceeds and/or
damages under or arising out of this coverage.
No action at law or in equity shall be brought to recover on this coverage prior to the
expiration of sixty (60) days after proof of loss has been furnished in accordance
with the requirements of this Description of Coverage.
The Company, at its expense, has the right to have you examined as often as reasonably
necessary while a claim is pending. The Company may also have an autopsy made
unless prohibited by law.
FORM #VTAI (07/08)

visa.com

